No.20-1249

In the

Supreme Court ofthe United Stat€s
a

GARYVTCTOR DUBIN

Petitioner,
v.
OFFICE OF DISCIPLINARY COUNSEL,

Respondent.
a

BRIEF OF AMICUS CURIAE SUBMITTED BY
PETITIONERS CLIENTS IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI
0

GARY

Vlcron DusrN

Counsel of&ecord

DusN Law Orlucps
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (808) ffi7'2300
Facsimile: (808) 523-7733
Cellular: (aos) 392'9191
E'Mail: gdubin@dubinlaw. net
Gary Victor Dubin
Attorney for Client Amici

TABLE OF CONTENTS

IDENTITY AND INTERESTS OF AMICI

1

SUMMARY OF ARGUMENT

2

ARGUMENT SUPPORTING REVIEW

3

1. The Protection of

Petitioner's Clients

3

2. The Protection of the Public

5

3. The Protection of Access to Justice

6

CONCLUSION

I

Certificate of Compliance
Proof of Service
Separate Appendix "A" through "E"

I

TABLE OF AUTHORITIES

Cases

Akinaka v. Disciplinary Board
of the Hawaii Supreme Court,
91 Haw. 5r,979P.2dL077 (rggg)...
Disciplinary Board v. Kim,
59 Haw. 449,583 P.2d 333 (rgzs)...
Fuentes v. Shevin, 407 U.S. 67

OglZ).

5

...........4

Lassiter v. Department of Social Services,

452rJ.s.13 (1981)

8

North Georgia Finishing, Inc. v. Di'Chem, Inc.,
49 U.S. 601 (1e75)......

,4

Sniadach v. Family Finance Corp.,
3e5 U.S. 337 (1e6e)......

.4

United States v. James Daniel Good Real Property,
4
51e U.s. 43 (1ee3)
Commentaries

Garfield, Neil; Neil Garfield Show.
March LI,2021.

l1

8

INDEX TO APPENDIX

EXHIBIT "A"
Client Amici
Identity List
EXHIBIT "B"
Dubin's Witness List
ODC's In Limine Motion
ODC's Hearing Offi.cer's Exclusionary Order
September 5, 8, 20,2017

EXHIBIT "C"
Dubin Law Offices
State Court Case Docket Sheets
October 18,2020

EXHIBIT "D"
Dubin Client Testimonials
July 16, 2020
EXHIBIT "E"
Order Denying Dubin Suspension
Hawaii Supreme Court
August 13, 2018

n1

BRIEF OF AI\,IICUS CI,]RIAE SI,]BMITTED BY
PETITIONEITS CLIENTS IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

This Amicus Brief is being timely submitted
pursuant to Supreme Court Rule 37.2(d in support
of Petitioner's Petition for a Writ of Certiorari,
timely filed both electronically and sent to the Office
of the Clerk by Federal Express on March 22, 202L,
within 30 days of the February 25, 2O2I docketing of
the Petition herein, the deadline thus being March
29, 2021, and prepared and filed pursuant to this
Court's COVID'l9 related April 15, 2020 Order
(mod.ifications to paper filing requirements).
1

IDEI{IIITY AND I\TTERESTS OF AI\,IICI

Amici are clients of Petitioner, members of the
general public, their names set forth in the
Appendix, Exhibit "/t'', too numerous to include in
the caption, who have requested that the Court's
attention be called to their having been affected also
independently as victims by the unfair disbarment
decision below, being denied the legal representation
of their choice without notice nor hearing, resulting
in highly adverse consequences, including disrupting
their cases, and threatened with loss of their homes.

1 Pursuant to Rule 37, the Court is informed that only
Respondent has failed to consent to the filing of this Amicus
Brief, although timely informed of the intent to file same.
Should consent subsequently be received, the Clerk will be
notified by letter.
Pursuant to Rule 37.6, the Court is informed that counsel for
Petitioner authored this Amicus Brief in whole, and that no
person other than counsel for Petitioner made a monetary
contribution to its preparation or submission.

1

SI]MI\,IARY OF ARGI.JMEI{T

The Petition is focused on the violation of

Petitioner's constitutional rights to equal protection,
due process, and freedom of speech with which
arguments Amici completely agree.
Amici has requested their personally addressing
this Court additionally in order to provide the Court
with an even deeper understanding of the
overwhelming seriousness of those underlying
constitutional transgressions in the context of their
blocking their access to justice, denying them
counsel of their choice, impeded by petty local
politics and dislike of unpopular causes.
Such capricious disbarment decisions are having
enormous detrimental consequences, not only on
Amici, but on the constitutional rights of the general
public as well, disadvantaging over one hundred
million homeowners and their families in the United
States, unable to secure experienced legal
representation in foreclosure proceedings due to the
chilling effect that such otherwise unreviewable and
arbitrary attorney disciplinary decisions are having
on the legal profession in Hawaii and nationally.

For such state disbarment decisions unfairly
disbarring foreclosure defense attorneys and
attorneys in other fields as well, have been virtually
unreviewable for more than a century.

Attorneys denied appellate review, unlike any
other such drastic deprivations of an individual's
livelihood in American law, has produced an
autocratic culture within state judiciaries, which
only this Court can remedy, and it is submitted that
no more worthy a case will ever come before this
Court for that purpose as that of this Petitioner, and
now joined in by Petitioner's clients as well similarly
and separately aggrieved as explained below.
2

ARGI]MENT SI]PPORTING REVIEW
There are three reasons why appellate review of
the Petition is urgently needed, in addition to the
arguments contained on behalf of Petitioner
personally already before this Court.

t. The Protection of Petitionet's Clients
When Petitioner's disciplinary proceedings began,
neither Petitioner nor his clients who were
knowledgeable of the charges and of the actual facts
expected disbarment, and indeed in the Petition and
the Amended Petition for discipline, as pointed out
in the Petition, the relief requested was attending an
ethics class.

As a result, a few representatives of Petitioner's

clients were named as his proposed character
witnesses for the hearing, opposed in an in limine
motion by the ODC, and matter-of-factly that in
Iimine motion was granted by the hearing officer,
denying Petitioner's clients any participation at the
hearing, only then it being announced that the ODC
was recommending disbarment, all of which is
documented in Appendix, Exhib it "8" .2

The eventual effect of disbarment upon Amici and

their more than 300 active cases was catastrophic,
like suddenly causing simultaneously over 300 train
wrecks, as shown in Petitioner's case dockets at the
time set forth in the Appendix, Exhibit"C".

for Exhibits "8" through "8" of which
this Court may take judicial notice are located on the first page
of each Exhibit.
2 The record references

3

Petitioner almost immediately lost all of his
associate attorneys and almost all of his staff in the
middle of over 300 cases. The result was more than a
crisis. It was a catastrophe. And time is running out
to remedy the situation.
No thought whatsoever was given to the rights
and financial health of Amici, finding themselves
without a prescribed remedy except for the
discretionary review of this Court that is reported to
accept review in less than one percent of the
petitions received yearly, hardly encouraging odds
when one's family home is at risk, especially during
a pandemic.

There is no other known situation in American
law today where one can lose property rights without
notice and a right to be heard, in this case many
having paid and/or invested their time assisting an
attorney to represent them.
Where notice and an opportunity to defend are
denied, this Court has come to the rescue every time.
See, e.g., Sniadach v. Family Finance Corp., 395 U.S.
337 (1969) (struck down a state statute permitting
the garnishment of wages without notice and
opportunity for hearing)i Fuentes v. Shevin,407 U.S.
67 i972) (struck down two state replevin statutes
allowing repossession without notice and a hearing)i
North Georgia Finishing, fnc. v. Di-Chem, fnc., 49
U.S. 601 (tgZS) (struck down state garnishment
statute allowing impounding without notice and
early hearing), United States v. James Danie| Good
ReaT Propefty, 519 U.S. 43, 53 (1993), (where this
Court took another opportunity, this time with
respect to civil forfeiture laws, to reaffrrm the
Sniadach-Fuentes-North Georgia line of cases,
holding that "the right to prior notice and a hearing
is central to the Constitution's command of due
process").
4

2, The Protection of the Public

The Hawaii Supreme Court in almost all of its
many disbarment decisions is fond of pointing out
that "the purpose of disbarment is not punishment of
the attorney, but is for the protection of the public,"
Disciplinary Board v. Kim, 59 Haw. 449, 455, 583
P.zd 333, 334 (197S)i Akinaka v. Disciplinary Board
of the Hawaii Supreme Court, 91 Haw. 51, 55, 979
P.2d1077, 1081 (tggg).

The Hawaii Supreme Court forgot to ask the

general public if

it needed protection from Petitioner,

notwithstanding the false narrative of disbarment it
penned against Petitioner while ignoring all of its
staffs conflicts of interest and all of the actual facts
in Petitioner's case, no doubt with an understanding
that it could do whatever it wanted to and expecting
that its decision would be unreviewable in this
Court.

However, had it asked the general public, of
which Amici are knowledgeable members of, it would
have learned differently, who have been rewarding
Petitioner with praise for his honesty and
competency, as shown in a list of some of the more
recent testimonials, set forth in the Appendix,
Exhibit "D", that Petitioner has received from his
clients, that is, from the general public.
The Court needs to be aware that what happened
to Petitioner is not as isolated event, endemic to a
small state situated somewhere in the middle of the

Pacific Ocean, but is a pattern throughout the entire
United States, where the general public is
paradoxically the party being punished in addition to
their attorneys, pronounced in, but not limited to,
the foreclosure defense field, more prevalent there
only because homeowners facing foreclosure an
eviction are much more stressed and emotional and
5

more prone to turn on their attorneys and judges
when experiencing some of the least laudable
aspects of foreclosure courts.

If our courts are to injure the lives of members of
the general public, as here, and trample on their
property rights, also as here, ironically to do so in
their supposedly protecting them, surely those
members of the general public most affected
arguably are entitled to notice and to be heard first.

And that is in part the message of the Amici for
this Court, as only this Court is capable of and in
this case reminding the discipliners that equal
protection, due process, and freedom of speech (il
of Petitioner in his role as talk show host)
ihe
"ur" public protections as well.
are general
3. The Protection of Access to Justice

Lastly, the unchecked and unreviewed wave of
disbarments in the United States is having a chilling

effect on access to justice as

attorneys
understandably are avoiding, for instance, assisting
homeowners rather than risk being targeted for
disbarment.

Although there are apparently no disbarment
statistics complied nationally, the number of
foreclosure defense attorneys disbarred has
notoriously skyrocketed in many states, at least half
a dozen known cases in Hawaii recently, all without
access to

nondiscretionary appellate review.

Neil Garfield, one of the most

knowledgeable

foreclosure commentators nationally, if not the most
knowledgeable, recently summarized in a very
recent column and on his radio show the alarming
access to justice situation for homeowners as follows:
6

It is now virtually impossible to find a
lawyer who will accept an engagement to
defend a foreclosure regardless of the
financial ability of the prospective client to

pay fees. The unconstitutional chilling
effect on lawyers and homeowners is
obvious. Lawyers and homeowners have
been chased away from defending
foreclosure claims that are unfounded,
illegal and fraudulent.

And the reason is simple: Iawyers who are
consistently successful at defending
foreclosures are targeted with disciplinary
actions, punishments and civil actions
that either directly or indirectly bar them

from ever representing or soliciting

a

client for foreclosure defense litigation. It's
not difficult to identifi' the beneficiary of
this phenomenon: it's the Wall Street
investment banks that are falsely
claiming to have securitized transactions
with homeowners that are falselY
represented and labeled as loans. They get
the money proceeds from forced sales of
homesteads and they don't distribute it to
anyone who paid value for entry into the
securitization scheme.

I have been a litigator for 45 years. During
that time I have also written workbooks
on and given CLE seminars to lawyers
country on various topics
litigation foreclosure,
business
relating to
expert testimony.
and
evidence, discovery
across

the

I

have never seen a situation like this,
created entirely by overreaching of state
bar grievance procedures and civil actions
brought by the Federal Trade Commission
7

and State AG offices under cover of
preventing fraudulent "foreclosure rescue"
scams. They have even come after me,
repeatedly but because of my experience
in defending administrative actions, they
were largely unsuccessful.
[Neil Garfield Showi www.lendinglies.comi March

lt,202ll

While there is no "Civil Gideon" requirement that

attorneys be appointed in civil cases, as
memorializedby this Court's Opinion in Lassiter v.

Department of Social Services, 452 U.S. 18 (1981),
there certainly should be concern in this Court
especially, which easily could in this case, by
reversing, fashion a requirement that attorneys and
their clients and the general public as a whole be
afforded the constitutional protections sought in the
Petition.
This Court need look no further to understand the
capricious nature of the decision making below, an
anathema to due process, than to read the August
13, 2018 Order of the Hawaii Supreme Court
regarding the conduct of this Petitioner, set forth in
the Appendix, Exhibit "E", where based on the same
identical facts that were presented to it two years
later when it disbarred Petitioner in 2020, it had
earlier refused in 2018 to suspend Petitioner.

At that time, however, it unintentionally blew a

dog whistle, as it were, for the attorney regulators
when it concluded in its August 13, 2018 Order: "IT
IS HEREBY ORDERED that the petition is denied,
without prejudice to the Office of Disciplinary
Counsel submitting to this court further information
regarding current, or new, allegations of misconduct
engaged in by Respondent Dubin, which would
warrant reconsideration."
8

The record, the Hawaii Supreme Court ruled, did

not support disbarment, but the same identical
record was nevertheless used later to support
disbarring Petitioner.

That was because the ODC thereafter flooded the
Court ex parte with false, hidden information
outside the record regarding supposed other,
phantom complaints never disclosed to Petitioner, as
explained in the Petition, at 27.
There is no other possible explanation.

Petitioner gave up the riches of Wall Street to

help homeowners struggling to make mortgage

payments. He did. The testimonials in the Appendix,
Exhibit "D" and his winning record attest to that.

Petitioner's clients requested that this Amicus
Brief be submitted, explaining to the Court how they
too have been damaged and seeking this Court's
assistance for all homeowners nationwide.

This Court can make an important difference by
reversing, recognizing that reviewability does exist.
CONCLUSION

The Petition for Writ of Certiorari should be
granted, the important issues herein should be
addressed, and the decision below reversed.

Respectfully submitted,

/s/ Gary Victor Dubin
GARY VICTOR DUBIN
Honolulu, Hawaii Counsel of&ecord
Attorney for Client Amici
March 22,202I

I

